No. 21-

In the Supreme Court of the United States
NATIONAL PORK PRODUCERS COUNCIL & AMERICAN
FARM BUREAU FEDERATION,
Petitioners,
v.
KAREN ROSS, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Timothy S. Bishop, counsel for Petitioners National Pork Producers Council
and American Farm Bureau Federation, hereby certify that on this 27th day of
September, 2021, I caused three copies of the Petition for a Writ of Certiorari of
Petitioners to be served by email and overnight delivery on the following counsel:
R. Matthew Wise
Office of the California Attorney General
1300 I Street, Suite 125
Sacramento, CA 95814
Tel.: (916) 324-8835
Matthew.Wise@doj.ca.gov

Bruce A. Wagman
Riley, Safer, Holmes & Cancila LLP
456 Montgomery Street, 16th Floor
San Francisco, CA 94104
Tel.: (415) 275-8540
bwagman@rshc-law.com

Attorney for Respondents Karen Ross, in
her official capacity as Secretary of the
California Department of Food and
Agriculture; Tomas Aragon, in his official
capacity as Director of the California
Department of Public Health; & Rob
Bonta, in his official capacity as Attorney
General of California

Attorney for Intervenor-Defendants
The Humane Society of the United States
of America; Animal Legal Defense Fund;
Animal Equality; The Humane League;
Farm Sanctuary; Compassion in World
Farming USA; and Compassion Over
Killing

I further certify that all parties required to be served have been served.
/s/ Timothy S. Bishop________
Timothy S. Bishop
Mayer Brown LLP
71 S. Wacker Drive
Chicago, IL 60606
(312) 782-8000
tbishop@mayerbrown.com

